U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                    PUBLIC
                   RELEASE

             NATIONAL OCEANIC AND
       ATMOSPHERIC ADMINISTRATION

               NMFS’s Unallied Management
                    Projects Program Awards
              Were Not Competitively Selected,
                            CFDA No. 11.454


      Audit Report No. STL-10952-9-0001 / March 1999




                   Office of Audits, Seattle Regional Office
U.S. Department of Commerce                                                                          Audit Report STL-10952-9-0001
Office of Inspector General                                                                                            March 1999

                                                            CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                7

   I. Unallied Management Projects Program Was Not Administered
      As a Competition-Based Financial Assistance Program . . . . . . . . . . . . . . . . . . . . . . . .                               7

        A. NMFS did not develop and publish
           merit-based evaluation criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              8

        B. Solicitation and review process did not comply
           with competitive requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                8

        C. Four noncompetitive awards under the program
           lacked adequate justification . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            9

   II. NOAA Reviews of Proposed NMFS Awards Were Not Effective . . . . . . . . . . . . . . . . 11

   III. Conclusions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         NOAA Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

   IV. Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

APPENDIX I - NOAA Procedures for Solicitation, Review, and Selection of Awards

APPENDIX II - New Awards and Amendments for Fiscal Year 1997

APPENDIX III - Synopsis of Awards and Amendments for Fiscal Year 1997

APPENDIX IV - NOAA Response to Draft Report
U.S. Department of Commerce                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                               March 1999

                                   EXECUTIVE SUMMARY

The Office of Inspector General conducted an audit of the fiscal year 1997 procedures and
practices for soliciting, reviewing, and selecting applications for financial assistance under the
National Oceanic and Atmospheric Administration’s National Marine Fisheries Service’s
(NMFS) Unallied Management Projects Program, classified as No. 11.454 in the Catalog of
Federal Assistance. The audit was conducted as part of a Department-wide review of
Commerce’s discretionary financial assistance program initiated at the request the Chairman of
the Senate Committee on Commerce, Science, and Transportation.

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine the recipients and funding levels of the awards. These
programs involve a significant portion of the Commerce Department’s budget and operations,
approximately $1 billion annually. If not properly administered, they are susceptible to fraud,
waste, and misuse of funds.

Through the Unallied Management Projects Program, NMFS provides grants and cooperative
agreements to furnish economic, sociological, and other information for conserving and
managing U.S. fishery resources and protected species and their environment. In fiscal year
1997, the program awarded three cooperative agreements, one continuation amendment to an
existing cooperative agreement, three grants, and one amendment to a new grant, totaling $1.2
million. All eight awards were made noncompetitively in response to unsolicited proposals.
Five awards, totaling $910,000, were made on the basis of language contained in the fiscal year
1997 appropriations conference report. The original cooperative agreement for which the
continuation amendment was awarded was also made noncompetitively in response to an
unsolicited proposal.

We examined NMFS’s criteria, procedures, and practices for the solicitation, review, and
selection of Unallied Management Projects Program awards and found that they did not comply
with departmental and NOAA requirements and were not adequate to guide agency officials in
making merit-based discretionary funding decisions. We found that the program was not
administered as a competition-based financial assistance program, as encouraged by federal laws
and regulations and mandated by Commerce policies and procedures. In addition, we examined
the written justifications prepared for the eight noncompetitive awards made in fiscal year1997
and found four to be inadequate. The justifications for the remaining four awards adequately
explained why competition was not appropriate. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published. (See page 7.)

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability or funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding. (See page 7.)

                                                 i
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department. (See page 7.)

As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

Lacking competitive award procedures, there is a greater potential for NMFS to make
questionable or even inappropriate noncompetitive program awards in instances where
competition from other sources is available. NMFS risks foregoing the receipt of research
proposals from a broad range of eligible applicants and thus may lose opportunities to increase
the effectiveness of the Unallied Management Projects Program.

We also found that the NOAA grants office did not provide adequate oversight of NMFS’s
administration of the program. (See page 11.)

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report (see Appendix IV).

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Unallied Management Projects Program are made through a competitive merit-
based process, unless otherwise mandated by law or adequately justified, and that the award
process complies with Department policies and procedures and includes the following four
elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent application reviews that consistently apply written program
               evaluation criteria.

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

                                                 ii
U.S. Department of Commerce                                        Audit Report STL-10952-9-0001
Office of Inspector General                                                          March 1999

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.

Our recommendations appear on pages 12 and 13.




                                             iii
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

                                       INTRODUCTION

The National Oceanic and Atmospheric Administration’s (NOAA) mission is to describe and
predict changes in the Earth’s environment and to conserve and manage wisely the nation’s
coastal resources. The National Marine Fisheries Service’s (NMFS) mission is to provide
stewardship of living marine resources for the benefit of the nation through their science-based
conservation and management and promotion of the health of their environment. NOAA,
through NMFS, administers the Unallied Management Projects Program, classified as No.
11.454 in the Catalog of Federal Domestic Assistance. The program’s objective is to provide
grants and cooperative agreements to furnish economic, sociological, and other information for
conserving and managing U.S. fishery resources and protected species and their environment.

The Unallied Management Projects Program did not have legislation authorizing a financial
assistance program and did not receive specific annual appropriations or funding allotments.
Program awards have always been made noncompetitively in response to unsolicited proposals.
The fiscal year 1997 awards, totaling $1,217,050, were funded with appropriations provided to
NMFS for its various fishery programs and under authorities of the Fish and Wildlife
Coordination Act, Fish and Wildlife Act, Magnuson Fishery Conservation and Management Act,
and Atlantic Tunas Convention Act.

The Fish and Wildlife Coordination Act, as amended, authorizes the Secretary of Commerce to
provide assistance to federal, state, and public and private agencies and organizations in the
development, protection, rearing, and stocking of species of wildlife, resources thereof, and their
habitat, and in controlling losses to the same from disease or other causes. The Fish and Wildlife
Act of 1956, as amended, authorizes the Secretary to perform research services on fish matters,
and provide assistance for informational services, economic and technological development,
resource conservation, and resource management. The Magnuson Fishery and Conservation Act
authorizes the Secretary to initiate and maintain a comprehensive program of fishery research
designed to acquire knowledge and information on fishery conservation and management and on
the economics of fisheries. The Atlantic Tunas Convention Act authorizes the Secretary to
administer and enforce all provisions of the International Convention for the Conservation of
Atlantic Tunas and to pay expenses of the Advisory Committee to the International Convention
for the Conservation of Atlantic Tuna .

NMFS made eight awards under the Unallied Management Projects Program in fiscal year 1997.
All eight awards were made noncompetitively to organizations that had submitted unsolicited
proposals. Unsolicited proposals are applications for financial assistance that are not submitted
in response to a formal solicitation notice published in the Federal Register. Three of the
proposals were submitted in response to specific requests from NMFS. The projects and the
organizations to be funded had been identified by NMFS beforehand.

The awards consisted of three cooperative agreements, one continuation amendment to an
existing cooperative agreement, three grants, and one amendment to a new grant. The awards



                                                 1
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

were made to a state, a marine science institute, a marine laboratory, a fishermen’s association,
and a corporation. The original award for which the continuation amendment was used was also
made noncompetitively in response to an unsolicited proposal. NMFS chose the cooperative
agreement as its award mechanism for three of the six new awards because program officials
planned to be substantially involved in the projects. For the remaining cooperative agreement,
NOAA chose a continuation amendment to an existing agreement because the project had been
funded in a previous year.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much financial
assistance that will be awarded. Competition is generally recognized as the most effective means
of ensuring that financial assistance awards are made on the basis of merit. One of the primary
purposes of the Federal Grant and Cooperative Agreement Act (31 U.S.C. §6301) is to encourage
competition in the award of federal financial assistance to the maximum extent practicable.

The Office of Management and Budget (OMB) has issued guidelines on administering
competition-based financial assistance programs for use by federal agencies. An interagency
study group, convened in 1979 by OMB to examine competition in financial assistance
programs, determined that financial assistance award processes, to ensure effective competition,
should include three basic elements. These elements, which were discussed in OMB’s June 1980
report, Managing Federal Assistance in the 1980's, are still applicable, and include:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following circulars which set forth the policies and procedures to be
followed in administering federal financial assistance programs:

l      OMB Circular A-89, Federal Domestic Program Information, implements The Federal
       Program Information Act (P.L. 95-220) requiring agencies to systematically and
       periodically collect and distribute current information to the public on federal domestic
       assistance programs, which is accomplished through the semiannual publication of the
       Catalog of Federal Domestic Assistance.




                                                2
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

l      OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
       Governments, requires agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.
       Under A-102, when time permits, an agency must provide the public with an opportunity
       to comment on funding priorities. Finally, A-102 requires all grant awards over $25,000
       to be review for consistency with agency priorities by a policy level official.

l      OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
       with Institutions of Higher Education, Hospitals, and Other Non-Profit Organizations,
       requires agencies to provide the public with advance notice of their intended funding
       priorities for discretionary assistance programs unless such priorities are established by
       federal statute.

l      OMB Circular A-123, Management Accountability and Control, implements the Federal
       Managers Financial Integrity Act (P.L. 97-255) requiring agencies to establish
       management controls for federal programs and operations, including financial assistance
       programs, that provide reasonable assurance that activities are effectively and efficiently
       managed to achieve agency goals.

Commerce has relied on OMB’s guidelines and circulars in developing and issuing policies and
procedures for its discretionary funding programs. Department Administrative Order (DAO)
203-26, Department of Commerce Grants Administration, requires that (1) all Commerce
financial assistance awards be made on the basis of competitive reviews unless a special waiver
is obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register
announcing the availability of funding, soliciting award applications, and specifying the criteria
and the process to be used in reviewing and selecting applications for funding. In addition,
agency-initiated noncompetitive or unsolicited awards should be adequately justified in writing
as part of an internal control system defined in OMB Circular A-123 and required by
DAO 203-26, Section 4.02 i.

The chart presented on the following page depicts the basic process and controls for the
solicitation, evaluation, and selection of financial assistance awards as set forth in DAO 203-26.
The processes we reviewed during our audit are color coded for this chart and the NOAA process
chart located in Appendix I.




                                                3
U.S. Department of Commerce                                                                                                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                                                                                                               March 1999




                                          Department of Commerce Financial Assistance Awards Process
 Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                  PREAWARD SCREENING
  Department




                                                                                                                                  * Office of General Counsel Review        FINANCIAL
                                    POLICIES &
                                                                                                                                                                            ASSISTANCE
                                    PROCEDURES                                                                                    * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                    -- Limited Background Check
                                                                                                                                    -- Credit Review
                                                                                                                                    -- Outstanding Audit Issues




                                                       SOLICITATION
                                                                              REVIEW                                                           PREAWARD SCREENING
  Bureau/Program




                                                                                                      SELECTION
                                     POLICIES &        Public Announcement
                                     PROCEDURES        and Notification of    * Independent Review                                             * Outstanding Accounts
                                                                                                      *   Quantitative Scores                                               SIGNED BY GRANT
                                                       Financial Assistance      Panel(s)             *   Public Policy Considerations           Receivable                 OFFICER
                                                       Opportunities (e.g.,   * Evaluation Criteria   *   Recommend Action                     * Suspensions & Debarments   OR DESIGNATED
                                                       Federal Register,      * Numeric Ranking       *   Decision Fully Justified and         * Award Prepared Properly    OFFICIAL
                                                       Commerce Business                                  Documented
                                                       Daily, Internet Web
                                                       Sites)
  Financial Assistance Applicants




                                                                                                                                                                               AWARD
                                                       PROPOSAL




                                                                                                          4
U.S. Department of Commerce                                          Audit Report STL-10952-9-0001
Office of Inspector General                                                            March 1999

                                   PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s
discretionary funding programs initiated at the request of the Chairman of the Senate Commerce,
Science, and Transportation Committee. The Chairman requested that the Inspectors General of
the Departments of Commerce and Transportation and the National Science Foundation review
the discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG review and report on the criteria developed, either statutorily or administratively, to guide
agency officials in making discretionary spending decisions, and on the extent to which the
criteria are appropriately applied.

We are conducting our Department-wide review in two phases: a survey phase and an individual
program audit phase. During the survey phase, we identified and examined the body of laws,
regulations, and other guidance applicable to the administration of federal financial assistance
programs. We also examined the authorizing legislation, provided by Department officials, for
each Commerce financial assistance program and classified each program as either a “full
discretion” program or a “limited discretion” program, based on the extent to which the
legislation limits the agency’s authority to independently determine the recipients and funding
levels of the awards made under the program. Finally, we examined the fiscal year 1997
appropriations legislation to identify legislatively mandated awards and reviewed accompanying
conference and committee reports to identify projects recommended for funding. No
legislatively mandated awards were found.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the Unallied Management Projects Program. We are evaluating
the adequacy of each program’s established award procedures and criteria for evaluating
individual applications. For those programs with procedures deemed to be adequate, we are
ascertaining whether they were followed in making awards in fiscal year 1997. For those
programs with procedures considered to be inadequate or lacking, we are reviewing how the
fiscal year 1997 award decisions were made. Finally, we are examining the legislatively
mandated projects identified for each program and determining their significance and impact on
fiscal year 1997 award decisions. We plan to issue individual reports, with any appropriate
recommendations, on each program, followed by a capping report summarizing the results of the
individual audits and providing recommendations for the Department and/or its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
survey phase of the OIG review, and discussed some of the preliminary observations from the
individual program audits.



                                               5
U.S. Department of Commerce                                          Audit Report STL-10952-9-0001
Office of Inspector General                                                            March 1999

This performance audit focused on all awards made during fiscal year 1997 under the Unallied
Management Projects Program. Specifically, we:

l      Reviewed the program authorization and other information published in the CFDA and
       provided by NOAA’s Office of Legislative Affairs to identify criteria for funding
       decisions.

l      Reviewed policies and procedures for soliciting, reviewing and selecting applications for
       funding (see Appendix I for flowchart of process). We also reviewed NOAA’s Grants
       and Cooperative Agreements Manual as it applied to the solicitation, review, and
       selection process and assessed whether it was adequate and in accordance with DAO
       203-26 Department of Commerce Grants Administration, and Office of Federal
       Assistance Financial Assistance Notice No. 17, Department of Commerce Guidelines for
       the Preparation of Federal Register Notices Announcing the Availability of Financial
       Assistance Funds -- Requests for Applications.

l      Compared NOAA/NMFS procedures with its practices to determine if the process
       contained adequate internal controls to provide for competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       Departmental and NOAA policies and procedures were followed.

l      Interviewed NOAA/NMFS program office officials concerning NOAA/NMFS’s
       solicitation, review, and selection procedures.

l      Examined fiscal year 1997 appropriations legislation to identify legislatively mandated
       projects and the accompanying committee and conference reports to identify projects
       recommended for funding under this program.

We did not rely on computer-based data supplied by NOAA and OEAM as a basis for our audit
findings and recommendations. We therefore conducted neither tests of the reliability of the
data, nor of the controls over the computer-based system that produced the data.

We performed the audit fieldwork at Seattle, Washington and NOAA’s Grants Management
Division in Silver Spring, Maryland, from May to June 1998. We conducted the audit in
accordance with generally accepted government auditing standards, and under the authority of
the Inspector General Act of 1978, as amended, and Department Organization Order 10-13, dated
May 22, 1980, as amended.




                                               6
U.S. Department of Commerce                                           Audit Report STL-10952-9-0001
Office of Inspector General                                                             March 1999

                          FINDINGS AND RECOMMENDATIONS

We found that NMFS’s criteria, procedures, and practices for the solicitation, review, and
selection of the Unallied Management Projects Program awards did not comply with
departmental and NOAA requirements and were not adequate to guide agency officials in
making merit-based discretionary funding decisions. NMFS did not administer the program as a
competition-based financial assistance program. NMFS has not developed and published merit-
based evaluation criteria against which applications for funding could be reviewed, did not
annually announce the program in the Federal Register, and made all awards under this program
noncompetitively in response to unsolicited proposals.

In addition, we reviewed the noncompetitive justifications for the eight awards made in fiscal
year 1997 and found four of them to be inadequate because NMFS did not provide sufficient
support for the unique applicant capabilities cited and/or did not correctly demonstrate that the
awards were legislatively mandated. NMFS’s practices do not comply with Department and
NOAA requirements to seek maximum program competition. We also found that reviews
performed by the NOAA grants office of the proposed awards did not question NMFS’s lack of
competitive award procedures or the validity of the noncompetitive award justifications. As a
result, NOAA/NMFS cannot provide reasonable assurance that noncompetitive awards made
under the program are merit-based and represent the most effective means of achieving program
objectives

I.     Unallied Management Projects Program Was Not Administered
       As a Competition-Based Financial Assistance Program

NMFS’s Unallied Management Projects Program was not administered as a competition-based
financial assistance program, as encouraged by federal laws and regulations and mandated by
Department of Commerce policies and procedures. All of the awards made under the program
were made noncompetitively in response to unsolicited proposals. We examined the written
justifications prepared for the eight noncompetitive awards made in fiscal year 1997 and found
four to be inadequate. Competition for the remaining four awards was not appropriate because
NMFS provided evidence of the legislative authorities supporting NMFS’s decision to make
awards to specific applicants. Specifically, we found that NMFS:

l      Did not comply with the Department’s requirement that merit-based evaluation criteria
       against which program applications for financial assistance could be reviewed, be
       developed and published.

l      Did not comply with the Department’s requirement that a notice be placed in the Federal
       Register, at least annually, announcing the availability of funds and soliciting award
       applications, and specifying the criteria and the process to be used in reviewing and
       selecting applications for funding.



                                                7
U.S. Department of Commerce                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                               March 1999

l      Did not comply with the Department’s requirements that (1) all financial assistance
       awards be made on the basis of a competitive review process, unless a special waiver is
       obtained, and (2) the competitive review process meet minimum standards established by
       the Department.

As a result of these deficiencies, NMFS cannot provide reasonable assurance that noncompetitive
awards made under the program are merit-based and represent the most effective means of
achieving program objectives.

A.     NMFS did not develop and publish
       merit-based evaluation criteria

The NOAA Grants and Cooperative Agreements Policy Manual, Chapter 1, Section A.4.,
requires that applications for financial assistance be reviewed by a panel of independent
reviewers in accordance with published criteria. The manual states that the criteria used for
evaluating applications must be published as part of the request for applications and prohibits
scoring against unpublished criteria. However, NMFS did not develop and publish merit-based
evaluation criteria against which competing program applications could be reviewed.

In particular, the agency did not place a notice in the Federal Register announcing the
availability of funding, soliciting competing applications for funding, and specifying the criteria
and the process to be used in reviewing and selecting applications for funding under the Unallied
Management Projects Program for fiscal year 1997. Also, the NMFS Unallied Management
Projects Program summary, published in the Catalog of Federal Domestic Assistance, did not
cite program-specific evaluation criteria. The summary simply states that proposals will be
initially evaluated by the pertinent NMFS Office, and are subject to review for technical merit,
soundness of design, competency of the applicant to perform the proposed work, potential
contribution of the project to national or regional goals, and appropriateness and reasonableness
of proposed costs. In order to be adequate to facilitate a merit-based evaluation process, criteria
used to evaluate applications for federal financial assistance must not be general in nature, but as
specific as possible with weights assigned to each criterion.

B.     Solicitation and review process did not comply
       with competitive requirements

Department Administrative Order 203-26, Section 4.02.b., requires Department bureaus to
publish an annual notice in the Federal Register for each financial assistance program
announcing the availability of funding, soliciting applications for funding, and specifying the
criteria and the process to be used in reviewing and selecting applications for funding. Section
4.02.f. also encourage the bureaus to publish notices in other widely distributed publications,
such as the Commerce Business Daily, to ensure widespread notice of funding opportunities.
Bureaus can also prepare and send requests for proposals directly to organizations known or
believed to be qualified. Also, NOAA’s Grants and Cooperative Agreements Policy Manual,
Chapter 1, Section A.4., states that it is NOAA’s policy to seek maximum competition for its

                                                 8
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

discretionary grants and cooperative agreements. To accomplish this, the manual states that
when appropriate, program offices should publish requests for applications in the Federal
Register or otherwise solicit applications from all eligible organizations.

In addition, Department Administrative Order 203-26, Section 4.02.a., requires the establishment
of selection criteria for use in evaluating applications submitted for new awards. Section 4.02.h.
requires awards be made on the basis of competitive review, and Section 4.02.h.1.(e) requires the
use of the selection criteria in evaluating individual applications. Unless a program receives a
waiver of competitive review requirements, awards under the program are generally required to
be made on the basis of competitive review.

However, despite the Department and NOAA policies, NMFS did not announce the Unallied
Management Projects Program in the Federal Register or Commerce Business Daily, and did not
establish merit-based criteria for evaluating proposals. By not announcing the program and
establishing award selection criteria as required, NMFS did not comply with Department as well
as its own policies and missed an important opportunity to seek potential program competition.
In addition, NMFS may have encouraged the use of noncompetitive awards by not developing
selection criteria for use in making awards for program needs when the anticipated awards
cannot be properly exempted from competitive review requirements.

Although NMFS did not announce the Unallied Management Projects Program in the Federal
Register, it still could have placed preaward notices in the Federal Register announcing its intent
to fund specific program projects and requesting proposals or inviting inquires from interested
organizations. However, NMFS did not publish individual preaward notices in the Federal
Register for any of the eight awards it funded on the basis of noncompetitive justifications. In
our opinion, publishing preaward notices would have provided (1) the public with an opportunity
to comment on proposed projects, (2) other qualified recipients an opportunity to submit
proposals for funding, and (3) NMFS officials with independent support for determining whether
a recipient is uniquely qualified to perform proposed projects.

C.     Four noncompetitive awards under the program
       lacked adequate justification

In fiscal year 1997, NOAA/NMFS awarded three cooperative agreements, one continuation
amendment to an existing cooperative agreement, three grants, and one amendment to a new
grant under the Unallied Management Projects Program, totaling $1,217,050. These awards
were made to a state, a marine science institute, a marine laboratory, a fishermen’s association,
and a corporation. A list of the awards is provided as Appendix II. The awards were made
noncompetitively to organizations that had submitted unsolicited proposals for NMFS funding
consideration. Also, we noted that NMFS made five of the eight awards on the basis of language
contained in the fiscal year 1997 Senate appropriations conference report. However, none of the
five awards were specifically contained in the fiscal year 1997 Appropriations Act and were,
therefore, not legislatively mandated. We understand that NMFS would want to consider

                                                 9
U.S. Department of Commerce                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                               March 1999

conference report language as it is an expression of congressional interest and intent. However,
NMFS was not required to make the awards without any consideration of competition or other
merit-based criteria. We also concluded that NMFS had no basis for not competing four of the
eight awards. A synopsis of all eight awards is provided in Appendix III.

We examined the written justifications for the noncompetitive awards and noted that NMFS
justified all of the awards on the basis that each proposed recipient possessed unique capabilities
that made it either the best or the only organization qualified to do the work. However, none of
the noncompetitive justifications cited general market surveys performed to determine if other
institutions were interested or capable of performing similar work.

Four awards, totaling $592,050, had inadequate noncompetitive justifications because NMFS
either did not provide sufficient support for the unique applicant capabilities cited or did not
correctly demonstrate that the awards were legislatively mandated. Specifically, the awards
included $285,000 to the Bering Sea Fisherman’s Association, $150,000 to the Mote Marine
Laboratory, $100,000 to the New England Aquarium Corporation, and $57,050 to the Virginia
Institute of Marine Science.

Competition for the remaining four awards was not appropriate because NMFS provided
evidence of the legislative authority supporting NMFS’s decision to make awards to specific
applicants. For two awards to the State of Alaska, competition was not appropriate because
NMFS provided evidence that it was providing funds to the State as a result of the Department of
Commerce transferring federal rockfish and crab fishery management responsibilities to the State
of Alaska under authority of the Magnuson Fishery Conservation and Management Act. For two
awards to the Virginia Institute of Marine Science, competition was not appropriate because
NMFS provided evidence of the legislative authority authorizing the Secretary of Commerce to
pay expenses of the Advisory Committee to the International Convention for the Conservation of
Atlantic Tuna.

Unsolicited proposals are applications for financial assistance that are not submitted in response
to a formal solicitation notice published in the Federal Register. Because unsolicited proposals
are a means by which unique or innovative ideas can be made available to accomplish specific
projects, scientific organizations like NOAA and NMFS encourage their submission. DAO
203-26, Section 4.02.i., allows the receipt of unsolicited proposals, but states that no unsolicited
proposal may be funded outside the competitive process if that proposal falls within the program
goals of a competitive program. In addition, the receipt of a technically acceptable unsolicited
proposal doe not, in itself, justify a noncompetitive award. DAO 203-26, Section 4.02.i., also
states that the decision to fund an unsolicited proposal must be fully justified and included in the
official grant file.

While NMFS wrote noncompetitive justifications for the eight awards, the justifications do not
cite any factual basis for the assertions that four applicants possessed unique capabilities. Since
NMFS also did not comply with the Department’s requirement that a notice be published in the
Federal Register soliciting applications for fiscal year 1997 awards under the Unallied

                                                 10
U.S. Department of Commerce                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                               March 1999

Management Projects Program, it lacked support for its claims that the organizations that
submitted the unsolicited proposals were the only ones that could perform the work. Instead, the
justifications contain statements by program office officials that are based on knowledge
accumulated through their past working relationships with the recipients. Without documented
support, a belief that an organization possesses unique qualifications does not justify making a
noncompetitive award because there may be other qualified applicants unknown to program
officials. Such a belief should still be tested through a competitive review process that includes
widespread solicitation of eligible applicants, through announcement in the Federal Register and
other means.

We believe the justification for a noncompetitive award should include a documented market
search to verify or confirm that there is only one source. The market search should include, at a
minimum, a preaward notice in the Federal Register stating that the agency expects to make a
noncompetitive award and inviting other interested and qualified parties to inquire. Such a
practice would be similar to the requirements in the Federal Acquisition Regulation (FAR) for
contracting, (see 48 FAR, Part 6.302). In addition, the review process for a noncompetitive
award should ensure that the proposal meets program goals. NMFS did not publish individual
preaward notices for the four awards.

II.   NOAA Reviews Of Proposed NMFS Awards Were Not Effective

Reviews performed by the NOAA grants office of the eight proposed noncompetitive awards did
not question NMFS’s lack of competitive award procedures or the validity of the noncompetitive
award justifications. The NMFS’s Office of Sustainable Fisheries and NMFS regional offices
forwarded, as required, their justifications and related documents for the proposed
noncompetitive awards to the grants office for review and approval. However, the grants office’s
review of the proposed awards did not ensure the NMFS program office’s compliance with
applicable Department and NOAA competitive requirements.

DAO 203-26, Section 4.01., requires that each organization unit establish a central liaison to
ensure that its programs comply with federal, departmental, and organization grant requirements
and to review grant documents for compliance. The NOAA Office of Finance and
Administration, which includes the NOAA Grants Management Division, fulfils that
responsibility for NOAA.

The grant files do not indicate whether the Grants Management Division questioned why the
NMFS program office did not prepare and submit the required annual Federal Register program
announcement. The files also do not show whether the grants office determined if the
noncompetitive justifications were factually based or if the program office had made any attempt
to identify other qualified sources before submitting the noncompetitive awards. Grants
Management Division personnel stated that they relied on and accepted as valid the technical
descriptions of perceived unique capabilities presented in the program office’s award
justifications. They further stated that while they reviewed the justifications to determine if they
addressed one or more of the acceptable reasons for a noncompetitive award, they did not verify

                                                 11
U.S. Department of Commerce                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                               March 1999

the information because the office has no authority over the offices submitting the justifications,
they can not make field trips to verify information, and scientists involved would not consider
them qualified to make the type of scientific determinations included in the noncompetitive
justifications. Therefore, we believe the reviews were not effective in ensuring the program
office’s compliance with Department and NOAA policies on competition.

III.   Conclusions

We concluded that NMFS’s fiscal year 1997 award process under the Unallied Management
Projects Program was not adequate to guide officials in making merit-based discretionary
funding decisions because NMFS did not develop and publish merit-based evaluation criteria and
the noncompetitive awards of two cooperative agreements and two grants did not comply with
Department and NOAA policies of seeking maximum competition. Also, NMFS’s written
justifications for the awards did not cite any factual basis for its claims that the four applicants
had unique capabilities and did not correctly demonstrate that the awards were legislatively
mandated. Despite these facts, the NOAA grants office did not question the awards. By not
following competitive procedures, NOAA/NMFS could make questionable or even inappropriate
noncompetitive program awards in instances where competition is available. In addition, by not
seeking competition, NMFS misses the opportunity to consider proposals containing the ideas,
designs, technology, or services that other qualified organizations can produce and thus lose an
opportunity to increase program quality.

NOAA Response

In its response to the draft report, NOAA stated that the agency agrees that more awards should
be granted competitively for all discretionary funding programs and that a rigorous solicitation
process should be used. NOAA also stated that the agency is continuing to look at its current
processes and will provide more specific comments and details as part of the audit action plan
submitted in response to the final report.

OIG Comments

NOAA’s concurrence that more awards should be competitively awarded is a positive reaction to
this report. We look forward to the Unallied Management Projects Program moving in that
direction. We have modified our recommendations in response to discussions with NOAA
officials regarding the draft report to clarify that we did not intend to suggest that all awards
must be made competitively. We understand that an unsolicited research proposal may very well
be justified for noncompetitive funding on an exception basis. However, we are emphasizing
that an entire program should not be administered on a noncompetitive basis, as this one is,
unless mandated by law.

IV.    Recommendations

We recommend that the Assistant Administrator for Fisheries ensure that financial assistance
awards under the Unallied Management Projects Program are made through a competitive

                                                12
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

merit-based process, unless otherwise mandated by law or adequately justified, and that the
award process complies with Department policies and procedures and includes the following four
elements:

       (1)     Widespread solicitation of eligible applications and disclosure of essential
               application and program information in written solicitations;

       (2)     Independent application reviews that consistently apply written program
               evaluation criteria.

       (3)     Written justifications for award decisions that deviate from recommendations
               made by application reviewers; and

       (4)     Adequate written justifications for noncompetitive awards which document
               appropriate market search efforts to validate the determination that there is only
               one source for the anticipated award. The market search should include, at a
               minimum, a preaward notice in the Federal Register stating that the agency
               expects to make a noncompetitive award and inviting other qualified parties to
               inquire.

We also recommend that the Chief Financial Officer/Chief Administrative Officer, as the
Director of the Office of Finance and Administration, which includes the Grants Management
Division, require that grants officer reviews of proposed noncompetitive awards include
procedures designed to objectively determine compliance with Department and NOAA
competitive requirements.




                                                13
U.S. Department of Commerce                                                                  Audit Report STL-10952-9-0001
Office of Inspector General                                                                                    March 1999
                                                                                                                   APPENDIX I
                                                                                                                    Page 1 of 1
                        NOAA/NMFS Procedures for Review and Selection of Awards




                                        Application submitted in response to
                                        legislative language or direct request
                                        from NOAA/NMFS




                                                       Program
                                             Office determines if should         No
                                                                                         Application
                                             be funded and if funds are
                                                                                          rejected
                                                      available


                                                      Yes




     Complete a Financial Assistance    Complete a Review Checklist
                                                                                      Complete Sole Source Justification
     Information Sheet:
                                         -- Competitive, sole source or
                                            congressionally mandated                  Submitted by Director/Chief of the
      --   Bureau
                                         -- Project analysis                          office or his designee
      --   Applicant
      --   Award period                  -- Conflict of interesrt
                                         -- Special award conditions                  Requests waiver to minimum
      --   Proposed amount
                                         -- Reporting requirements                    competitive review process and
      --   CFDA no.
                                         -- Grant or cooperative agreement?           gives justification
      --   Scope of work
      --   Statutory authority




                                               Send to NOAA Grants
                                               Management Office for
                                                review and approval




                                               Send to Department for                                    Solicitation Process
                                                review and approval


                                                                                                          Review Process



                                                                                                         Selection Process
U.S. Department of Commerce                                               Audit Report STL-10952-9-0001
Office of Inspector General                                                                 March 1999
                                                                                        APPENDIX II
                                                                                          Page 1 of 1

                   UNALLIED MANAGEMENT PROJECTS PROGRAM

                        Awards and Amendments for Fiscal Year 1997


 Number         Type              Recipient                Type of Work                    Amount

 NA77FM0209     New Cooperative   State of Alaska          Rockfish research               $ 237,500
                Agreement

 NA77FM0281     New Cooperative   Mote Marine Laboratory   Shark Research                     150,000
                Agreement

 NA77FM0533     New Cooperative   New England Aquarium     Bluefin Tuna Research              100,000
                Agreement         Corporation

 NA67FM0212     Amendment to      State of Alaska          King & Tanner Crab Research        237,500
                Cooperative
                Agreement

 NA76FM0565     New Grant         Bering Sea Fishermen’s   Community Development              285,000
                                  Association              Quota Support

 NA76FM0155     New Grant         Virginia Institute of    Atlantic Tuna Advisory             125,000
                                  Marine Science           Committee Support

 NA76FM0270     New Grant         Virginia Institute of    Marlin Research                     57,050
                                  Marine Science

 NA76FM0155     Amendment to      Virginia Institute of    Atlantic Tuna Advisory              25,000
 Amendment 1    New Grant         Marine Science           Committee Support

                                                                                Total      $1,217,050
U.S. Department of Commerce                                           Audit Report STL-10952-9-0001
Office of Inspector General                                                             March 1999

                                                                                  APPENDIX III
                                                                                     Page 1 of 6

                          UNALLIED MANAGEMENT PROGRAM

                  Synopsis of Awards and Amendments for Fiscal Year 1997

I.     Awards with Inadequate Noncompetitive Justifications

       NA76FM0565 - Bering Sea Fisherman’s Association

       The fiscal year 1997 appropriations conference report states that “In addition, $300,000
       shall be made available to the Bering Sea Fishermen’s Association for community
       development quota implementation work in Western Alaska.” Based on the conference
       report language NMFS allocated funds for this purpose and requested that the Bering Sea
       Fishermen’s Association submit a project proposal to NMFS for funding consideration.
       NMFS received a proposal in the amount of $285,000. NOAA/NMFS awarded a
       $285,000 grant (No. NA76FM0565) to the Bering Sea Fishermen’s Association in
       September 1997 using funds contained in its fiscal year 1997 appropriations. The grant
       did not require a matching contribution. The award’s purpose was to provide
       independent program guidance and administrative resources support to communities,
       corporations, and agencies involved in the Community Development Quota program in
       Alaska. The proposed work is a continuation of the provision of Community
       Development Quota administrative services to rural western Alaska initiated in prior
       years. The project period was limited to one year.

       The written noncompetitive justification states that the Bering Sea Fishermen’s
       Association has unique qualifications to address the proposed award, and the non-
       discretionary funding of this program is directed by Congress, and, as such, is deemed
       prudent and necessary to fulfill the Federal Government‘s responsibility with regard to
       the administration of the CDQ program in Alaska.

       The noncompetitive justification was inadequate because the project is not contained in
       the Fiscal Year 1997 Appropriation Act, and, therefore, is not a legislatively mandated
       earmark. Also, NMFS did not provide evidence, such as the results of a published
       solicitation, that the Bering Sea Fishermen’s Association was the only entity capable of
       performing the award.
U.S. Department of Commerce                                             Audit Report STL-10952-9-0001
Office of Inspector General                                                               March 1999

                                                                                     APPENDIX III
                                                                                        Page 2 of 6

       NA77FM0281 - Mote Marine Laboratory

       NMFS received an unsolicited proposal from the Mote Marine Laboratory in the amount
       of $150,000. NOAA/NMFS awarded a $150,000 cooperative agreement
       (No. NA77FM0281) to the laboratory in July 1997 using funds contained in its fiscal year
       1997 appropriations. The cooperative agreement required a $16,667 matching
       contribution, bringing the total project budget to $166,667. The award’s purpose was to
       tag juvenile sharks along the Gulf of Mexico to determine primary nursery areas,
       recruitment, and movements. The project period was limited to one year.

       The written noncompetitive justification states that the laboratory has unique
       qualifications to complete this research because of staff expertise and experience; no
       other entity has the capability to continue this research; the laboratory is the only source
       available to provide required biological information; and the laboratory’s expertise in
       shark research was previously recognized by funding through special Congressional
       authorization in 1992 and 1994.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the Mote Marine Laboratory
       was the only entity capable of performing the award.

       NA77FM0533 - New England Aquarium Corporation

       NMFS received an unsolicited proposal from the New England Aquarium Corporation in
       the amount of $100,000. NOAA/NMFS awarded a $100,000 cooperative agreement
       (No. NA77FM0533) to the aquarium in September 1997 using funds provided in its fiscal
       year 1997 appropriations. The cooperative agreement did not require a matching
       contribution. The award’s purpose was to fund a bluefin tuna aerial survey and hydro-
       acoustic tracking study to continue research on the distribution, size, and biomass of
       juvenile bluefin tuna schools off the coast of New York through Virginia. The project
       period was limited to one year.

       The written noncompetitive justification states that the New England Aquarium is
       uniquely qualified to complete this research; personnel have conducted other aerial
       surveys of bluefin tuna; the aquarium is a recognized leader in marine science and
       education; and the cost will be significantly lower than if performed by the federal
       government.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the New England Aquarium
       was the only entity capable of performing the award.
U.S. Department of Commerce                                               Audit Report STL-10952-9-0001
Office of Inspector General                                                                 March 1999

                                                                                       APPENDIX III
                                                                                          Page 3 of 6

       NA76FM0270 - Virginia Institute of Marine Science

       NMFS received an unsolicited proposal from the Virginia Institute of Marine Science in
       the amount of $57,050. NOAA/NMFS awarded a $57,050 grant (No. NA76FM0270) to
       the institute in May 1997 using funds provided in its fiscal year 1997 appropriations. The
       grant agreement required a $12,204 matching contribution, bringing the total project
       budget to $69,254. The award’s purpose was to investigate the genetics of white and
       striped marlin to determine if a genetic character exists which can discriminate between
       the two species. The project period was limited to one year.

       The written noncompetitive justification states that the previous substantial investment of
       the institute, its specialized facilities and database, and the skills of the scientists involved
       justifies a noncompetitive award.

       The noncompetitive justification was inadequate because NMFS did not provide
       evidence, such as the results of a published solicitation, that the Virginia Institute of
       Marine Science was the only entity capable of performing the award.

II.    Awards with Adequate Noncompetitive Justifications

       NA77FM0209 - State of Alaska

       The fiscal year 1997 appropriations conference report states that “the Committee directs
       that $600,000 of the total provided be used for rockfish research, of which $250,000 shall
       be provided to the Alaska Department of Fish and Game.” Based on the conference
       report language NMFS allocated funds for this project and requested that the State of
       Alaska submit a project proposal for funding consideration. NMFS received a proposal
       in the amount of $237,500. NOAA/NMFS awarded a $237,500 cooperative agreement
       (No. NA77FM0209) to the Alaska Department of Fish and Game in July 1997. The
       cooperative agreement did not require a matching contribution. The award’s purpose was
       to fund continuing research to gain better stock assessment of the biomass of Demersal
       Shelf rockfish in order to determine the abundance of rockfish which is harvested
       commercially, and thus improve the management of these species, and reduce the chances
       of over-harvest. The award was provided to the State of Alaska to carry out federal
       fishery management responsibilities transferred to the State under authority of the
       Magnuson Fishery Conservation and Management Act. The project period was limited to
       one year.

       The written noncompetitive justification states that each year since 1994, Congress has
       appropriated funds to the Alaska Department of Fish and Game to continue research on
       the Demersal Shelf Rockfish in the Eastern Gulf of Alaska, immediate responsibility for
       management of the Demersal Shelf Rockfish was given to the State of Alaska under the
U.S. Department of Commerce                                           Audit Report STL-10952-9-0001
Office of Inspector General                                                             March 1999

                                                                                   APPENDIX III
                                                                                      Page 4 of 6

       North Pacific Fishery Management Council’s Fishery Management Plan for Groundfish
       of the Gulf of Alaska, the State of Alaska has collected information and has both
       equipment and data at its disposal to continue the research, Congress has earmarked funds
       to the state for the support of these Federally delegated management activities, and there
       is no other entity or organization designated or capable of being designated for this role.

       The project is not contained in the fiscal year 1997 Appropriation Act, and, therefore, is
       not a legislatively mandated earmark. However, competition was not appropriate because
       NMFS provided evidence that the Department of Commerce transferred federal rockfish
       fishery management responsibilities to the State of Alaska under authority of the
       Magnuson Fishery Conservation and Management Act.

       NA67FM0212 - State of Alaska

       The fiscal year 1997 appropriations conference report states that “the Committee
       recommends $5,400,000 for Alaska groundfish monitoring, of which $1,100,000 is for
       crab management and research...the remaining $850,000 shall be used for a crab research
       program to be jointly developed by the State of Alaska and NMFS.” Based on the
       conference report language NMFS allocated funds for this project and requested that the
       State of Alaska submit a project proposal for funding consideration. NMFS received a
       proposal in the amount of $237,500. NOAA/NMFS awarded a $237,500 amendment to
       an existing cooperative agreement (No. NA67FM0212) to the Alaska Department of Fish
       and Game in July 1997. The grant did not require a matching contribution. The award’s
       purpose was to provide funding for research relevant to management strategies for King
       and Tanner crab fisheries in the waters off Alaska. The award was provided to the State
       of Alaska to carry out federal fishery management responsibilities transferred to the State
       under authority of the Magnuson Fishery Conservation and Management Act. The
       project period was limited to one year.

       The written noncompetitive justification states that each year since 1993, Congress has
       appropriated funds to the Alaska Department of Fish and Game to continue research on
       crab stock, the State if Alaska has collected information and has both the equipment and
       data at its disposal to continue the research, the North Pacific Fishery Management
       Council has recommended, and the Secretary of Commerce has concurred, that
       management of the King and Tanner Crab fisheries in the waters of the Bering Sea be
       delegated to the State of Alaska, Congress has earmarked funds to the state for the
       support of these Federally delegated management activities, and there is no other entity or
       organization designated or capable of being designated for this role.

       The project is not contained in the Fiscal Year 1997 Appropriation Act, and, therefore, is
       not a legislatively mandated earmark. However, competition was not appropriate because
       NMFS provided evidence that the Department of Commerce transferred federal
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

                                                                                   APPENDIX III
                                                                                      Page 5 of 6

       King and Tanner Crab fishery management responsibilities to the State of Alaska under
       authority of the Magnuson Fishery Conservation and Management Act.

       NA76FM0155 - Virginia Institute of Marine Science

       NMFS received an unsolicited proposal from the Virginia Institute of Marine Science in
       the amount of $125,000. NOAA/NMFS awarded a $125,000 grant (No. NA76FM0155)
       to the institute in April 1997 using fiscal year 1997 appropriations that NMFS allocated
       for this award based on language contained in the fiscal year 1997 appropriations
       conference report and Senate committee report. The conference report adopted funding
       recommendations in the Senate committee report including “$150,000 provided for
       operations of the Advisory Committee to the International Convention for the
       Conservation of Atlantic Tuna.” The Senate committee report states that “$150,000 is
       provided for operations of the Advisory Committee to the International Convention for
       the Conservation of Atlantic Tuna.” The Atlantic Tunas Convention Act authorizes the
       Secretary of Commerce to pay expenses of the advisory committee. The grant did not
       require a matching contribution. The award’s purpose was to provide support for an
       advisory committee to the U.S. Section to the International Commission for the
       Conservation of Atlantic Tuna. The project period was limited to one year.

       The written noncompetitive justification states that the chairperson of the advisory
       committee is elected by the Committee and NMFS has no control over the election
       process; therefore, the administration of the grant to support Committee activities
       depends upon the professional position of the Chairperson. In this case, the Chairperson
       is a researcher at the Virginia Institute of Marine Science. Therefore, upon election of the
       Chairperson, the VIMS becomes the logical responsible party to receive the grant and to
       administer the funds for Advisory Committee activities.

       The project is not contained in the Fiscal Year 1997 Appropriation Act, and, therefore, is
       not a legislatively mandated earmark. However, competition was not appropriate because
       NMFS provided evidence that the Secretary of Commerce was authorized to pay
       expenses of the Advisory Committee to the International Convention for the
       Conservation of Atlantic Tuna.

       NA76FM0155, Amendment 1 - Virginia Institute of Marine Science

       NMFS received an unsolicited proposal from the Virginia Institute of Marine Science in
       the amount of $25,000. NOAA/NMFS awarded a $25,000 amendment to an existing
       grant (No. NA76FM0155) to the institute in September 1997 using fiscal year 1997
       appropriations that NMFS allocated for this award based on language contained in the
       fiscal year 1997 appropriations conference report and Senate committee report. The
       conference report adopted funding recommendations in the Senate committee report
U.S. Department of Commerce                                            Audit Report STL-10952-9-0001
Office of Inspector General                                                              March 1999

                                                                                   APPENDIX III
                                                                                      Page 6 of 6

       including “$150,000 provided for operations of the Advisory Committee to the
       International Convention for the Conservation of Atlantic Tuna.” The Senate committee
       report states that “$150,000 is provided for operations of the Advisory Committee to the
       International Convention for the Conservation of Atlantic Tuna.” The Atlantic Tunas
       Convention Act authorizes the Secretary of Commerce to pay expenses of the advisory
       committee. The grant did not require a matching contribution. The grant did not require
       a matching contribution. The award’s purpose was to add supplemental
       funding for the project titled “Administrative and Travel Management Support for
       International Commission for the Conservation of Atlantic Tuna.” The project period
       was limited to one year.

       The written noncompetitive justification states that the chairperson of the Advisory
       Committee is elected by the Committee and NMFS has no control over the election
       process; therefore, the administration of the grant to support Committee activities
       depends upon the professional position of the Chairperson. In this case, the Chairperson
       is a researcher at the Virginia Institute of Marine Science. Therefore, upon election of the
       Chairperson, the VIMS becomes the logical responsible party to receive the grant and to
       administer the funds for Advisory Committee activities.

       The project is not contained in the Fiscal Year 1997 Appropriation Act, and, therefore, is
       not a legislatively mandated earmark. However, competition was not appropriate because
       NMFS provided evidence that the Secretary of Commerce was authorized to pay
       expenses of the Advisory Committee to the International Convention for the
       Conservation of Atlantic Tuna.
